No. 20-_____
IN THE SUPREME COURT OF THE UNITED STATES
JAMES GALEN HANNA,
Petitioner
vs.
TIM SHOOP, Warden
Respondent
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
MOTION TO PROCEED IN FORMA PAUPERIS

Petitioner James Galen Hanna moves this Court to proceed in forma pauperis.
He is indigent and has been indigent throughout all proceedings in the lower courts,
and undersigned counsel were appointed to represent him pursuant to 18 U.S.C.
ยง3599. The motion should be granted.

Respectfully Submitted,

Deborah L. Williams
Federal Public Defender
Allen L. Bohnert
* Paul R. Bottei
Jacob A. Cairns
Assistant Federal Public Defenders
Office of the Federal Public Defender
Southern District of Ohio
10 West Broad Street, Suite 1020
Columbus, Ohio 43215
(614) 469-2999
* Counsel of Record
/s/ Paul R. Bottei

